Visa® Platinum Rewards Credit Card Agreement
but was not, we will not be liable for any consequential, punitive, or incidental
damages if we acted in good faith. Our only obligation under those circumstances will
be to pay the designated payee the amount of the Convenience Check and cancel any
charges assessed against your Account as a result of any wrongful failure to honor the
Convenience Check.
7. Balance Transfers: We may permit you to transfer balances from other
companies, including financial institutions. However, you cannot make Balance
Transfers from the Bank accounts. The amount of your total Credit Limit which we
may allow to you for a Balance Transfer reduces the amount of the Credit Limit
available for Purchases and Advances. Finance Charges on your Balance Transfers
accrue from the date of transfer to your Account. If you reach your limit on the amount
of credit we allocate to you for one or more Balance Transfers, you may not transfer
additional balances even if you have not reached your total Credit Limit. Balance
Transfers will post to the Account and be separately reflected on the monthly Account
statements as a Balance Transfer, or, depending upon the offer, may post to the
Account and be treated as a Purchase, or as an Advance transaction.

This is a card member agreement and disclosure statement (“Agreement”) between
you and Hills Bank and Trust Company containing the terms that will apply to your Hills
Bank Visa Platinum Rewards (“Account”). In this Agreement, “you” and “your” means
each individual accepting a solicitation or applying for the Account or otherwise
agreeing to be responsible for the Account. “We”, “us”, “our”, and “the Bank” means
Hills Bank and Trust Company, the issuer of the Card and your Account creditor.
Other terms are defined in the text of the Agreement. Please read this Agreement
carefully and keep it in a safe place to make the best use of the Hills Bank credit card
(the “Card”) we issue with this Account. The Agreement becomes effective as soon as
you or someone authorized by you uses the Card or Account, but no later than 30
calendar days after we issue and you fail to return the Card.
ACCOUNT FEATURES AND YOUR USE OF THE ACCOUNT
1. Use: Charging privileges on the Card and Account are provided by the Bank
pursuant to the terms of this Agreement. Charge activity, Account status, and any
Account delinquency information will be provided to you monthly. You may use the
Card to obtain an Advance (as defined below) from a participating financial institution
or Automated Teller Machine (ATM). You may use the Account only for personal,
family, or household purposes.
2. Your Acceptance of the Agreement: By accepting, signing, or using this Card or
Account, or by continued use of an existing Card or Account, you are agreeing to the
terms of this Agreement.
3. Account Purchases: You may use the Account to buy, lease, or otherwise obtain
goods or services from participating merchants (including transactions you initiate via
email, by telephone, or over the Internet) or take advantage of special promotional
Convenience Check or Balance Transfer offers that post as Purchase Transactions
(“Purchases”). We will, in connection with any promotional Balance Transfer or
Convenience Check offer we make, provide you with materials that explain whether
those transactions will post and be treated as a Purchase. Even if you have not
signed a sales draft or the merchant has not supplied you with a written receipt or
other proof of sale, you are responsible for all Purchases made through the Account,
except as expressly limited by applicable law. See “Your Billing Rights” section for
more detail.
4. Account Advances: Advances are transactions other than Purchases that allow
you direct access to funds available through your Account. Advances may include
Account transactions such as cash advances you obtain directly from us, other
participating financial institutions, ATMs, Telephone Transfers, Balance Transfers, or
Convenience Checks. Monthly Account statements we issue may refer to Advances
as “Advance”, “Cash”, “Cash Advances” or by the product or device you used to obtain
an Advance. You may use your Account to obtain cash either by presenting your Card
at any bank or other financial institution that accepts the Card or by making a
withdrawal of cash at an ATM. We may restrict the amount of the credit limit that is
available for Advances. If an Advance limit greater than the percentage available is
requested, it will be subject to credit approval. You may be limited in the amount
and/or number of Advances you may make on your Account.
5. Convenience Checks: From time to time, we may supply Convenience Checks
for use by the person(s) named on those checks. Convenience Checks are drafts that
look like other checks, but are drawn on credit available in the Account. We may,
based on the particular offers we make from time to time, provide Convenience
Checks that will post and be treated as an Advance or Convenience Check that will
post and be treated as a Purchase. We will, in connection with any Convenience
Check we provide, include materials that explain whether the Convenience Check will
post and be treated as an Advance or as a Purchase. Convenience Checks must be
written in U.S. dollars. We may return a Convenience Check unpaid if:
(a) the credit available under your Credit Limit is less than the Convenience Check
amount;
(b) the Account is in default; or
(c) the Convenience Check is improperly signed or otherwise fails to conform to our
regularly accepted standards for check payment. Convenience Checks may not be
used to pay the Account or any obligation you owe us or our affiliates.
6. Paying and Stopping Payment on Convenience Checks: You must use the
number and address provided in the “Lost or Stolen Card or Convenience Checks”
section below to request that payment be stopped on a Convenience Check. You
must call us promptly with an oral stop payment request and then provide us with a
written confirmation of the stop payment request within 14 calendar days. Any stop
payment request we receive will remain in effect for 6 months, unless you renew the
request in writing before the end of that time. We may pay Convenience Checks more
than 6 months old. There may be circumstances under which a Convenience Check
must be paid, even if we have received a stop payment request from you. We will not
be liable to you if we do not honor your stop payment request under those
circumstances. If it is determined that a Convenience Check should have been paid,

FINANCE CHARGES AND ACCOUNT FEES
8. Account Finance Charges: Finance Charges reflect the cost of credit. Your total
Finance Charge for any billing cycle will equal the amount of any (a) periodic rate
Finance Charges (sometimes referred to as “interest” here and on your monthly
Account statement); (b) Advance transaction fees; and (c) any other transaction fees
that are considered Finance Charges. In some of the following sections we have
abbreviated the terms “monthly periodic rate” as MPR, “average daily balance” as
“ADB”, and “annual percentage rate” as “APR”.
9.1 Interest Rate: The APRs and the corresponding monthly periodic interest rates
are listed on the attached rates and fee table. The Prime Rate used to calculate the
APR will be the Prime Rate on the 15th day of each month or the first regular business
day thereafter as published on that business day in the Money Rates column of The
Wall Street Journal (“WSJ”). The APR may increase if the Prime Rate increases. An
increase will take effect the day after your statement cycles following the 15th of the
month. An increase will result in an increase in the finance charge and it may have the
effect of increasing your periodic minimum payment. The APR will not change more
often than once a month. A decrease will have the opposite effect of an increase. If
the Prime Rate changes more frequently than the APR, we will always use the Prime
Rate in effect on the day we adjust the APR to determine the new APR. In such case
we will ignore any changes in the Prime Rate that occur between APR adjustments.
Any rate change will be applied to all balances carried forward from the last statement.
We reserve the right to choose a comparable new index if the WSJ ceases to publish
a Prime Rate.
9.2 Interest Rate for Cash Advances: The MPR and the corresponding variable
APR will be determined by adding eleven percentage points (11.0%) to the Prime Rate
in respect to the Account for the billing cycle. The Prime Rate used to calculate the
APR will be the Prime Rate on the 15th day of each month or the first regular business
day thereafter as published on that business day in the Money Rates column of WSJ.
The APR may increase if the Prime Rate increases. An increase will take effect the
day after your statement cycles following the 15th of the month. An increase will result
in an increase in the finance charge and it may have the effect of increasing your
periodic minimum payment. The APR will not change more often than once a month.
A decrease will have the opposite effect of an increase. If the Prime Rate changes
more frequently than the APR, we will always use the Prime Rate in effect on the day
we adjust the APR to determine the new APR. In such case we will ignore any
changes in the Prime Rate that occur between APR adjustments. Any rate change will
be applied to all balances carried forward from the last statement. We reserve the
right to choose a comparable new index if the WSJ ceases to publish a Prime Rate.
10. Interest Finance Charge: Finance Charges on your account for Purchases and
Advances are calculated separately.
Purchases (Method G)
A Finance Charge will be imposed on Purchases only if you elect not to pay the entire
New Balance shown on your previous monthly statement within 25 days from the
closing date on the statement. If you elect not to pay the entire New Balance shown
on your previous monthly statement within 25 days from the closing date on the
statement, a Finance Charge will be imposed on the unpaid balance of purchases
from the statement closing date (including new Purchases) and will continue to accrue
until the closing date of the billing cycle preceding the date on which the entire New
Balance is paid in full or until the date of payment if more than 25 days from the
closing date.
The Finance Charge for a billing cycle is computed by applying the Monthly Periodic
Rate (which is the APR divided by 12 months) to the Average Daily Balance of
Purchases, which is determined by dividing the sum of the daily balance of Purchases
during the billing cycle by the number of days in the cycle. Each daily balance is the

1

Effective 10/05 | Revision 12/15

Visa® Platinum Rewards Credit Card Agreement
make available to you. (Also see the “Advance Limits” section for more information
about Limits on Advance transactions section.)
14. Payment:
(a) Promise to Pay: You agree to pay for all Purchases, Advances, Finance
Charges, fees, and any other obligations incurred on the Account.
(b) Method of Payment: You must pay us in U.S. dollars with checks or similar
payment instruments drawn on a financial institution located in the United States. We
may, at our option, choose to make an exception and accept a payment drawn on a
foreign bank. However, you will be charged and agree to pay any collection fees
required in connection with such a transaction. The date you mail a payment is
different than the date we receive payment. For purposes of this Agreement, the
payment date is the day we receive your check or money order at the address
specified on your monthly Account statement. If you mail your payment without a
payment coupon or to an incorrect address, it may result in a delayed credit to your
Account. This may result in additional Finance Charges, fees, and possible
suspension of your Account.
(c) Minimum Monthly Payment: Each month you must pay at least the Minimum
Payment and any past due Minimum Payment by the Payment Due Date shown in
your monthly Account statement. Your Minimum Payment for Purchases and Cash
Advances is 3.0%, rounded up to the nearest dollar, of the total Purchase and Cash
Advance balance (excluding late payment), or $25.00 — whichever is greater. In
addition, your Minimum Payment will include all amounts delinquent, and amounts in
excess of your Credit Limit. If your outstanding Purchase and Cash Advance balance
is less than $25.00 then the entire balance is due. You also may pay the entire
balance on your Account at any time or pay any amount between the Minimum
Payment and your entire balance. Any changes in your Minimum Payment due will be
reflected on your monthly statement in the month in which the Minimum Payment due
is affected. However, in all cases, you may continue to pay any amount equal to or
greater than the Minimum Payment due.
(d) Application of Payment: We may allocate payments to amounts owed on your
Account in the manner we deem appropriate, including but not limited to, applying
payment to promotional balances, such as Balance Transfers, before applying them to
Purchases and Advances.
15. Change of Address: Your monthly Account statements and notices about your
Account will be sent to the address you provided in your application or your response
to our Account solicitation. To change your address, you must call us at 1-800-4455725 or write to us at the following address:
eServices Department
Hills Bank and Trust Company
131 Main Street
P.O. Box 160
Hills, Iowa 52235
We must receive this information 15 days before the date a billing cycle closes to
provide your monthly Account statement at your new address. Note: If you have an
address change within 45 days of the expiration date of your Card(s), please contact
the Hills Bank Contact Center at 1-800-445-5725 with that information so your new
Card(s) can be mailed to your new address.
16. Authorized Use: You agree not to give your Card to anyone else or to authorize
anyone to use the Account. If you give your Card or Account number to someone and
they use either, you will be liable for any charges that the person incurs.
17. Lost or Stolen Card or Convenience Checks: You must notify us immediately if
your Card or Convenience Checks are lost or stolen or there is possible unauthorized
use of your Card or Account. You will not be liable in excess of $50.00 for any theft or
loss for purchase charges that occur after notification to the Bank. Notify the
eServices Department by phone at 1-800-445-5725, or 1-800-423-7503 or in writing to:
eServices Department
Hills Bank and Trust Company
131 Main Street
P.O. Box 160
Hills, Iowa 52235
If this happens, we will ask you and all other persons given Account access to return
all Cards and unused Convenience Checks to our eServices Department. In addition,
we have the right to close your Account and open a new Account. If we do so, new
Cards and Convenience Checks will be issued for your new Account.
18. U.S. Currency: If you make a Purchase or Cash Advance in foreign currency the
transaction will be converted into U.S. Dollars by Visa.
For Visa Accounts: To the extent that you have used your Visa card to Purchase
goods or services, or obtain cash in another country, your statement may reflect the
conversion into U.S. dollars of transactions that occurred, initially, in a different
currency. The exchange rate applied to such transactions is a (i) wholesale market
rate or (ii) government-mandated rate in effect one day prior to the processing date,

principal balance including current cycle Purchases and payments and credits as
received, but excluding any unpaid Finance Charges.
Cash Advances (Method A)
A Finance Charge will be imposed on Advances from the date of the Advance or from
the first day of the billing cycle in which the Advance is posted to the Account,
whichever is later, and will continue to accrue until the date of payment. The Finance
Charge for a billing cycle is computed by applying the Monthly Periodic Rate (which is
the APR divided by 12 months) to the Average Daily Balance and Advances which is
determined by dividing the sum of the daily balances of Advances during the billing
cycle by the number of days in the cycle. Each daily balance is determined by adding
to the Previous Balance (the outstanding balance of your Account at the beginning of
the billing cycle) any Purchase as of the date it is posted to your Account and any
Advances as of the transaction date or the first day of the billing cycle in which the
Advance is posted to the Account, whichever is later, and subtracting all payments as
received and credits as posted through that date, but excluding any unpaid Finance
Charges.
Any Finance Charge shown on your monthly statement is computed only through the
last date of the billing cycle. Since Finance Charges continue to accrue until the date
your payment is received and posted to your Account, additional Finance Charges
may appear on the following month’s statement. The amount of the Finance Charge
and the Advance Fee may be changed from time to time. There is a minimum Finance
Charge of 50 cents in any billing cycle in which a Finance Charge is due.
11. Grace Period: You have a 25 day Grace Period for Purchases (including any
promotional Balance Transfers or Convenience Checks that will post as Purchases),
provided you have paid your Previous Balance in full by the Payment Due Date shown
on your monthly Account statement. In order to avoid additional Finance Charges on
Purchases, you must pay your New Balance in full by the Payment Due Date shown
on the front of your monthly Account statement. There is no grace period for
transactions that post to the Account as Advances. Those transactions are subject to
interest from the date they post to the Account until the date they are paid in full.
12. Account Fees: We may charge the following fees. The amounts of these fees
are listed in the attached rates and fee table.
(a) Cash Advance Transaction Fee: We will add a Finance Charge to the Advance
balance of the Account in the form of the Advance Transaction Fees disclosed below
for each Advance you obtain during a billing cycle. The fees imposed will equal the
greater of the fees based on a disclosed percentage of each Advance of the minimum
dollar amount, shown below.
CASH RECEIVED
PERCENTAGE
MINIMUM
FROM:
OF CASH FEE:
MAXIMUM:
FINANCIAL INSTITUTION
3.0%
$ 5.00
OR ATM
$15.00
(b) Annual Fee: $15.00
(c) Late Payment Fee: We will add a Late Payment Fee of $27.00 to the Purchase
balance of the Account if your Minimum Payment is not received by the Payment Due
Date shown on the monthly Account statement.
(d) Returned Payment Fee: We will add a Returned Payment Fee of $27.00 to the
Purchase balance of the Account if a draft or check you give us as payment on the
Account is not honored or if we must return it to you because it cannot be processed.
A check that is returned unpaid may be sent for collection.
(e) Returned Convenience Check Fee: We may charge a fee of $35.00 to the
Purchase balance of the Account if you write a Convenience Check that we do not
honor under the terms of this Agreement. (See “Convenience Checks”, and “Paying
and Stopping Payment on Convenience Checks” sections for more details).
(f) ATM Surcharges: When you use an ATM not owned by us, you may be charged
a fee by the ATM owner or network used to complete the transaction and you may be
charged for a balance inquiry.
(g) Card Usage Reports Fee: We may offer additional reports regarding Card usage
and Account transactions which will be provided upon your request for an agreed upon
fee.
(h) Foreign Transactions: A 1.0% fee is assessed only on international transactions
when a currency conversion occurs. Visa will also impose a 0.8% fee on foreign
transactions where a currency conversion is not performed.
IMPORTANT INFORMATION ABOUT USING YOUR ACCOUNT
13. Credit Limit: The Account Credit Limit is the maximum amount of credit available
and the maximum amount that you may owe under the Account at any time. You may
not request or obtain additional Purchases, Advances, or Balance Transfers once you
have reached your Credit Limit. The initial Credit Limit is shown on the Card carrier
and will also appear on your monthly Account statement. We reserve the right to
review your Account at any time and increase or decrease your Credit Limit. You may
not increase your Credit Limit by carrying a credit balance over the Credit Limit we

2

Effective 10/05 | Revision 12/15

Visa® Platinum Rewards Credit Card Agreement
eServices Department
Hills Bank and Trust Company
131 Main Street
P.O. Box 160
Hills, Iowa 52235
26. Changing the Agreement: The Bank may change all or any part of this
Agreement at any time, including changing the APR and other fees on the Account,
unless prohibited by law. We will give at least 30 days notice before the effective date
of any change. On the effective date, the changes, including any changes in APR or
recalculation of Finance Charges, will apply to all amounts you owe at the time the
change goes into effect. If you do not agree to the changes, you must notify us in
writing within 25 days after the effective date of the change; you also must pay any
remaining amount due and destroy the Card. You may pay the remaining amount all
at once or the Bank may allow you to continue making payments under the existing
terms. Otherwise, you will have agreed to the changes in the notice. Use of the
Account after the effective date of the changes shall be deemed acceptance of the
new terms, even if the 25 days have not expired.
27. Cancellation:
(a) The Bank may cancel the Account or suspend credit privileges immediately and
without notice if the Account is in default. We may also cancel the Account in our sole
discretion (even if the Account is not in default) by providing notice to you. You may
cancel the Account by providing notice to us.
(b) After cancellation of the Account, you will not be able to obtain additional credit on
the Account and must agree not to use the Account. All amounts outstanding on the
Account will be immediately due and payable without notice or demand.
(c) If you fail to pay any amount you owe under this Agreement, you will be liable for
our costs of collecting. In addition, if we refer our claim to an attorney for collection,
you will be liable for reasonable attorney’s fees we incur and expenses of any legal
actions.
28. Assignment of Your Account to Another Creditor: We may assign, sell, or
transfer your Account and amounts owed by you to another creditor at any time. If we
do, this Agreement will still be in effect unless and until amended and any references
made in this Agreement to “we”, “us”, “our”, or “the Bank” will refer to the creditor to
which we assigned, sold, or transferred the Account or amounts owed under the
Account. You may not delegate your obligation and responsibilities to us to any third
party without our express written consent.

increased by one percent. We reserve the right to charge you an additional one
percent (1.0%) of the U.S. dollar amount of any international transaction, whether that
transaction was originally made in U.S. dollars or was made in another currency and
converted to U.S. dollars by Visa or MasterCard. In either case, the 1.0% will be
calculated on the U.S. dollar amount provided to us by that entity. The same process
and charges may apply if any international transaction is reversed.
YOUR LEGAL RESPONSIBILITY IN THIS AGREEMENT
19. Responsibility to Pay: You agree to pay us for all Purchases, Advances,
Balance Transfers, Finance Charges, Account Fees and charges, any other
transaction charges as provided in this Agreement and, to the extent permitted under
applicable law, attorneys fees, and collection costs we incur enforcing this Agreement
against you. This is the case even if the Account is only used by you, or someone to
whom you’ve given access to the Account.
20. Liability for Charges: You are individually liable and you and the individual or
co-obligor(s) who accepted the application for credit, if any, are jointly liable for all
charges to the Account including, without limitation, all fees and Finance Charges.
21. Intent to Repay: Every time you use the Account, you represent to us that you
intend and have the reasonable ability to repay your Account obligations. We rely on
that representation every time you use the Account.
22. Settling a Disputed Balance: Payment in Full — If you want to settle a
disagreement with us about any amount you owe by sending a check on which you
have written “Payment in Full” or similar language, you must send us a written
explanation of the disagreement and dispute and send such check to:
eServices Department
Hills Bank and Trust Company
131 Main Street
P.O. Box 160
Hills, Iowa 52235
(See “Your Billing Rights” section for complete details.) Writing “Payment in Full” or
similar language on the check will not be enough to resolve the dispute. If we collect a
check or any payment instrument marked “Paid in Full” that you send without a written
explanation of the disagreement or dispute, we will not have waived our right to collect
any remaining amount you owe us under the terms of the Account.
23. Default: You and the Account will be in default if:
(a) you do not make the Minimum Payment by the Payment Due Date (disclosed on
the monthly Account statement as the Payment Due Date);
(b) you violate any other provision of this Agreement;
(c) you become insolvent, assign any property to your creditors, or go into bankruptcy
or receivership;
(d) you have made false statements affecting the application or maintenance of your
Account;
(e) you go over your Credit Limit;
(f) we have any reason to believe that the Account is in danger of, or is being used for
fraud; or
(g) anything happens that we believe in good faith materially increases the risk that
you will not live up to your payment and other obligations under this Agreement.
If you are in default, we may, to the extent permitted by applicable law, set-off, and
withdraw any portion or all of the amount due under your Account Agreement against
any balance, credit, deposits, accounts, or other property of yours in our possession,
after giving you any notice required by applicable law. Should the obligation fall
delinquent, and a judgment is obtained then the judgment shall accrue interest at the
rate of 18.0% per annum until the judgment is Paid in Full.
24. Illegal Purchases: The Card must not be used for any unlawful purpose, such as
tending any account that is set up to facilitate online gambling. You agree that you will
not use or knowingly permit another to use the Card or Account for any transaction
that is illegal under applicable law.

THE BANK’S LEGAL RIGHTS AND OBLIGATIONS
29. Collecting Credit Information About You: You authorize us to make any credit,
employment, and investigative inquiries we feel are appropriate related to giving you
credit or collecting amounts owed on your Account. You agree that a consumer credit
report or business bureau file request, as applicable, may be requested periodically
from one or more credit reporting agencies (credit bureaus) and used in connection
with your application and any update, renewal, or extension of credit. We may provide
information about you, your Account, or your credit history to credit reporting agencies
and others who may properly receive that information.
30. Credit Bureau Disputes: If you believe we inaccurately reported credit history
information about you or the Account to a credit bureau, call us at 1-800-445-5725 or
write to us at:
eServices Department
Hills Bank and Trust Company
131 Main Street
P.O. Box 160
Hills, Iowa 52235
31. Refusal to Honor Transactions: The Bank and its agents are not responsible if
anyone refuses to honor your Card or a Convenience Check, or if authorization for a
particular transaction is not given. Although you may have credit available under the
Account, we may be unable to authorize credit for a particular transaction. The
number of transactions you make as well as the dollar amount you may withdraw from
or charge to your Account in one day may be limited, and the limit per day may vary.
These restrictions are for security reasons. And, as a result, we cannot explain the
details of how this system works. If your Account is over limit or delinquent,
authorization of credit for transaction may be declined. We are not responsible for
anything Purchased with your Card or a Convenience Check, except as expressly
required by applicable law (see “Your Billing Rights” section for more details.) You
must return goods you Purchased with the Card or Account to the Merchant and not to
us. Third party offers: From time to time, third parties may provide you with benefits
not related to the extension of Account credit. We are not liable for these features,
services, and enhancements, as they are the sole responsibility of the third party
provider. The Bank and/or third party may add, change, or delete entirely these
benefits without notice or liability to you, to the extent permitted by applicable law. You

THE BANK’S LEGAL RIGHT TO CHANGE OR CANCEL THIS AGREEMENT
25. Ownership of this Account; Governing Law: Your Card and any other Account
access devices that we supply to you are our property, and must be immediately
returned to us or otherwise destroyed or surrendered as we instruct. We extend all
Account credit to you in and from the State of Iowa, regardless of where you reside or
use the Account. This Agreement is governed by Iowa law, and, to the extent
necessary for interest exportation or consumer protection purposes, by federal law,
regardless of the internal conflict of law principles of the state where you reside or use
the Account. If a dispute arises and you file a lawsuit against us, service or process
must be made on the Bank at the following address:

3

Effective 10/05 | Revision 12/15

Visa® Platinum Rewards Credit Card Agreement
(a) Within 60 days after the error appeared on your statement.
(b) At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing [or electronically]. You may call us,
but if you do we are not required to investigate any potential errors and you may have
to pay the amount in question.
What will happen after we receive your letter
When we receive your letter, we must do two things:
(a) Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
(b) Within 90 days of receiving your letter, we must either correct the error or explain to
you why we believe the bill is correct.
While we investigate whether or not there has been an error
(a) We cannot try to collect the amount in question, or report you as delinquent on that
amount
(b) The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
(c) While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
(d) We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
If we made a mistake
(a) You will not have to pay the amount in question or any interest or other
fees related to that amount.
(b) If we do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We may then report you as delinquent
if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you
as delinquent without also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your
credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
(a) The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase was based on an advertisement
we mailed to you, or if we own the company that sold you the goods or services.)
(b) You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not
qualify.
(c) You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing [or electronically] at:
eServices Department
Hills Bank and Trust Company
131 Main Street
P.O. Box 160
Hills, Iowa 52235
www.HillsBank.com
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point, if we
think you owe an amount and you do not pay, we may report you as delinquent.

agree to hold us harmless from any claim, actions, or damages resulting from your use
of any of these features, services, or enhancements, when permitted by applicable
law.
32. Telephone Monitoring: From time to time, we may monitor telephone calls you
make to us or our agents.
33. Severability: If a court of competent jurisdiction finds any part of this Agreement
illegal or unenforceable, the remaining portions of the Agreement will remain in effect
as written after any such illegal or unenforceability porting is amended in compliance
with applicable law or, if necessary, voided.
34. Entire Agreement: This version of the Agreement replaces any previous
versions of the Agreement. The Agreement, as modified by any change in terms we
may deliver from time to time in accordance with applicable law, constitutes the entire
agreement between you and us, and supersedes any prior negotiation or
understanding between you and us concerning the subject matter of the Agreement.
35. Waiver: We do not give up our rights under the Agreement or applicable law
when we fail to exercise or delay exercising these rights. Our failure or delay to
exercise any right or remedy we have against you does not mean that we waive that
right.
36. Arbitration: In requesting an Agreement from us and accepting the Agreement,
you agree that if a dispute of any kind arises out of this Agreement, either you or we
may choose to have that dispute resolved by binding arbitration. If arbitration is
chosen by any party, neither you nor we will have the right to litigate that claim in court
or to have a jury trial on that claim, or to engage in pre-arbitration discovery, except as
provided for in the arbitration rules. In addition, you will not have the right to
participate as a representative or member of any class of claimants pertaining to any
claim subject to arbitration. The Arbitrator’s decision will generally be final and
binding. Other rights that you would have if you went to court, may also not be
available in arbitration. It is important that you read the entire Arbitration Provision
carefully before accepting the terms of this Agreement.
Any claim, dispute, or controversy (whether in contract, regulatory, tort, or otherwise,
whether pre-existing, present, or future and including constitutional, statutory, common
law, intentional tort, and equitable claims) arising from or relating to (a) the Card it
offered or provided to you; (b) the actions of you, or third parties; or (c) the validity of
this arbitration provision individually and collective, (a “Claim”) must, after an election
by you or us, be resolved by binding arbitration in accordance with this arbitration
provision and the Commercial Arbitration Rules of the American Arbitration Association
(“AAA”) in effect when the Claim is filed (or, in the event this arbitrator or these
arbitration rules are no longer available, then a comparable substitute arbitration
procedure and/or arbitration organization that does business on a nationwide basis).
There shall be no authority for any Claim to be arbitrated on a class action basis. An
arbitration can only decide our or your Claim and may not consolidate or join the
claims of other persons who may have similar Claims. You may obtain rules and
forms by calling the AAA at 1-800-778-7879. Any arbitration hearing that you attend
will take place in the federal judicial district where you reside. At your request, we will
advance the first $250.00 of the filing and hearing fees for any Claim you may file
against us. The arbitrator will decide whether we or you will ultimately pay those fees.
The arbitrator shall apply applicable substantive law consistent with the Federal
Arbitration Act (FAA) and applicable statutes of limitation, and shall honor claims of
privilege recognized at law. Judgment upon the award rendered by the arbitrator may
be entered in any court having jurisdiction. This Arbitration Provision shall survive
repayment of your extension of credit and termination of your Account. The Arbitration
Provision shall be governed by the FAA, 9 U.S.C. §1 through §6.
YOUR BILLING RIGHTS - KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
37. What to do if you find a mistake on your statement
If you think there is an error on your statement, write to us at:
eServices Department
Hills Bank and Trust Company
131 Main Street
P.O. Box 160
Hills, Iowa 52235
You may also want to contact us at www.HillsBank.com.
In your letter, give us the following information:
(a) Account information: Your name and account number.
(b) Dollar amount: The dollar amount of the suspected error.
(c) Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:

4

Effective 10/05 | Revision 12/15

Hills
Bank
and Trust Company

Visa® Platinum Rewards Credit Card Agreement
Rates and Fees Table

INTEREST RATES AND INTEREST CHARGES
Annual Percentage
Rate (APR) for Purchases/
Balance Transfers
APR for Cash Advances
How to Avoid Paying
Interest on Purchases
Minimum Interest Charge
For Credit Card Tips from
the Federal Reserve Board

10.50% to 13.50% when you open your account based on your

credit worthiness. This APR will vary with the market based on the
Prime Rate.
14.50% this APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing
cycle. Hills Bank will not charge you any interest on purchases if
you pay your entire balance by the due date each month.
If you are charged interest the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

FEES
Annual Fee
Transaction Fees
• Cash Advance
• Foreign Transaction

$15.00 charged on the anniversary date of the card.
• Either $5.00 or 3.00% of the amount of each cash advance,
whichever is greater, with a maximum fee of $15.00.
• 1.0% when a currency conversion occurs. 0.8% when a
currency conversion is not performed.

Penalty Fees
• up to $27.00
• Late Payment
• up to $27.00
• Returned Payment
• Returned Convenience Check • up to $35.00
How we will calculate your balance:
• We use a method called “average daily balance (including new purchases)”
Prime Rate:
• Variable APRs are based on the 3.50% Prime Rate as of December 17, 2015.
• We add 7.00% to 10.00% to the Prime Rate to determine the Purchase/Balance Transfer APR (monthly periodic rate
currently 0.875% to 1.125%).
• We add 11.00% to the Prime Rate to determine the Cash Advance APR (monthly periodic rate currently 1.20833%).
Billing Rights:
• Information on your rights to dispute transactions and how to exercise those rights is provided in the attached
account agreement.

eServices Department • 131 Main St • PO Box 160 • Hills, IA 52235 • 1-800-445-5725

Cedar Rapids Downtown • Cedar Rapids Northeast • Cedar Rapids Southwest • Coralville • Hills • Iowa City Downtown • Iowa City Eastside
Iowa City South Gilbert • Kalona • Lisbon • Marion • Mount Vernon • North Liberty • Washington • Wellman • Member FDIC • HillsBank.com
Rev. 12/15

